Audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues Neuces County Sheriff's Department Corpus Christi, Texas
GR-80-01-004
November 7, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of  DOJ equitable sharing revenues by the Nueces County, Texas, Sheriff's Department (Sheriff's Department).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

We reviewed the Sheriff's Department's compliance with six essential equitable sharing guidelines and found that the Sheriff's Department generally complied with the guidelines.  However, we found weaknesses in two areas as identified below.

The Sheriff's Department did not submit the required Federal Sharing Agreement for the period including FY 2000 and did not submit the required Annual Certification Report for FY 1999.

	We identified $2,000 in questioned costs related to expenditures of equitable sharing revenues for unallowable purposes.  We also identified an additional $175 unallowable expenditure; however, subsequent to our audit the Sheriff's Department was reimbursed for this amount and deposited the funds in the federal equitable sharing account.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.